              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Management Alert

The 2020 Vision One System Proposal
for Commissioning and Startup of the
Waste Treatment and Immobilization
Plant




DOE/IG-0871                            October 2012
                                  Department of Energy
                                    Washington, DC 20585

                                         October 3, 2012


MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Management Alert on "The 2020 Vision One
                          System Proposal for Commissioning and Startup of the Waste
                          Treatment and Immobilization Plant"

IMMEDIATE CONCERN

The Department of Energy is considering a proposal known at the 2020 Vision One System
(2020 Vision) that would implement a phased approach to commissioning the $12.2 billion
Waste Treatment and Immobilization Plant (WTP). As part of the phased approach, the Low-
Activity Waste (LAW) facility would be made operational approximately 15 months before
commissioning the remainder of the project. Although the implementation of the phased
approach offers potential benefits, early operation of the LAW facility presents significant cost,
technological and permitting risks that could adversely affect the overall success of the River
Protection Project's (RPP) mission of retrieving and treating the Hanford Site's tank waste in the
WTP and closing the tank farms to protect the Columbia River.

Despite identified challenges, the Department had not developed a detailed analysis of the costs,
benefits and risks of the proposal even after such steps were recommended by two independent
review teams. Specifically, the Department had not included all costs associated with the
proposal in existing cost estimates. Department officials told us that they completed a high-level
business analysis of certain WTP costs. However, our review found that this effort did not
include a cost analysis with sufficient detail to satisfy the recommendations made in the external
review reports. Additionally, key technology attributes needed for the proposal may not be
adequately developed to support operations. In particular, proposed near or in-tank pretreatment
capabilities did not appear to be at the stage of maturity to support a critical decision to approve
the performance baseline. Finally, an apparent lack of resources to meet the needs of an
accelerated permitting process could further delay 2020 Vision implementation.

Although it had not made a final decision regarding implementation, the Department instructed
its contractor to include a phased waste delivery strategy as part of the ongoing effort to develop
a revised baseline for the WTP project. The Department had initially required a baseline change
proposal by August 2012. However, because of recently identified technical concerns,
modification of the baseline was delayed until the tests to address these concerns have been
completed. To this end, the Department has formed a high-level panel of experts to provide
advice on technical concerns related to the WTP's "black cells," where waste will undergo
various pre-treatment processes. The panel's recommendations may impact alternatives under
consideration for pre-treatment of waste. In light of the decision to modify the WTP baseline
and the potential impact of implementing a phased approach, we concluded that the Department
should develop a detailed business case that includes a comprehensive cost analysis and risk
assessment before making a formal decision to implement the 2020 Vision. The recommended
analyses should help ensure that no actions are taken that could inadvertently delay the
successful completion of the WTP project.

BACKGROUND

The Department's $12.2 billion WTP at the Hanford Site is scheduled to be completed in 2019
and is expected to treat and immobilize approximately 56 million gallons of hazardous waste
from the Site's tank farms. The WTP consists of multiple facilities, including the pretreatment
facility, the first step in the WTP waste flow that is designed to receive, treat and separate the
waste into High-Level Waste (HLW) and LAW streams. These waste streams will be pumped to
the appropriate HLW and LAW vitrification facilities where the waste will be immobilized
within glass. Bechtel National, Inc. (Bechtel) is the contractor responsible for design,
construction and commissioning the WTP.

To address the challenges with commissioning the WTP, the Department is evaluating a proposal
known as the 2020 Vision. The goal of 2020 Vision is to commission the WTP facilities using a
phased approach, rather than the current baseline plan for commissioning all facilities at once.
As part of the phased approach, the LAW vitrification facility is to be completed and
commissioned significantly ahead of the Pretreatment and HLW vitrification facilities. Under
these circumstances, the LAW vitrification facility could be operated prior to the availability of
the pretreatment facility, which would still be under construction. This would require the
construction of an interim pretreatment capability, as well as a temporary waste transport system
to deliver the waste from the tank farm to the LAW facility. The proposal calls for LAW
operations to start in 2016. However, in light of recent technical developments, the Department
is considering a revised schedule that would have LAW operations begin in 2019.

The Department is evaluating the 2020 Vision proposal and had not yet decided whether to
proceed. Accordingly, we initiated this review to identify the key risks associated with the 2020
Vision and to determine whether the Department has sufficient analytical data to make an
informed decision on whether to proceed with implementation. It should be noted that although
this report is based on the proposal's original schedule of LAW operations starting in 2016, the
issues, risks and recommended actions contained herein are applicable to other scenarios being
considered by the Department that involve early treatment of LAW prior to full commissioning
of the WTP.

CONCLUSIONS AND OBSERVATIONS

If it is successfully implemented, the 2020 Vision offers several cost and schedule benefits.
However, implementation involves potentially significant project risks that, in our view, require
additional analysis. Specifically:

   •   Not all costs associated with the proposal were included in existing estimates;



                                                2
   •   Key technology attributes needed for the proposal may not be adequately developed to
       support operations; and,

   •   Modifying permits needed for the proposal may significantly delay implementation.

To be clear, the Department has completed a substantial amount of planning. Yet, it was our
observation that it did not yet have all of the data necessary to make a fully informed decision on
the 2020 Vision. We were concerned that the Office of River Protection (ORP), the Department
element directly responsible for the WTP, had not developed a detailed analysis of costs, benefits
and risks for the proposal, even though such actions had been recommended by two independent
review teams. Without analyses of these factors, the Department might choose a course of action
that could inadvertently have a negative impact on the RPP mission — a critical component of
the Department's overall environmental remediation strategy.

                                     Benefits of 2020 Vision

According to the proposal submitted jointly by Bechtel and the contractor responsible for tank
farm operations, Washington River Protection Solutions (WRPS), to the Department on
October 24, 2011, the 2020 Vision offers a number of potential benefits. Based on the
documentation supporting the proposal, augmented by discussions we had with Department
officials, it was asserted that the 2020 Vision advances the project in the following ways:

   •   Early operational experience for the WTP's operating crews, which will allow
       management to work out the inevitable unforeseen challenges in a safer and more
       controlled manner;

   •   Waste vitrification in the LAW facility could begin up to 15 months earlier than the
       baseline plan. This would demonstrate the Department's commitment to stakeholders to
       clean up this waste; and,

   •   A phased commissioning approach for the WTP would transition completed facilities into
       beneficial operations with operating expense funding, decreasing the risk of exceeding
       line item cost limitations and keeping the project within its $12.2 billion budget.

                                  Risks and Information Needs

As noted previously, our review identified cost, technology and permitting concerns that require
additional analysis if the Department is to make a fully informed decision on whether to proceed
with the 2020 Vision proposal.

                                         Cost Estimates

The Department did not know the complete cost of implementing the 2020 Vision. Although the
Department received a formal cost estimate for portions of the 2020 Vision from Bechtel and
WRPS, the full cost of all activities was not included in the proposal. Specifically, the
contractors submitted a joint cost estimate of $283 million that only included design,



                                                3
construction and operation costs for the interim pretreatment and waste delivery systems, as well
as the modifications for the LAW vitrification facility to receive waste directly from the tank
farms. These estimates did not include the significant costs for operating the LAW vitrification
facility that had been included in a prior similar proposal. When we discussed this concern with
management, ORP and Bechtel officials informed us that the operating costs could not be
estimated at this time. Per an agreement with ORP, Bechtel was not required to provide an
estimate of these costs until 2014, and then only for costs to be incurred in Fiscal Year (FY)
2016. However, an earlier version of the proposal contained a cost estimate of $315 million for
operating costs from FYs 2014 through 2020. Since costs associated with early operation of the
LAW vitrification facility are likely to be significant, we believe that the Department should
insist on the development of the best possible estimate of such costs before determining whether
to proceed with the proposal.

                                        Technical Risks

Additional technical analysis was needed to demonstrate that the interim pretreatment capability
would perform as intended. The pretreatment capability is comprised of two functions: a
filtration system to remove solids from the liquid LAW and an ion exchange system to remove
cesium. These systems would be installed near or inside of double-shell tanks. The
development of new technologies to support Department projects is addressed in DOE Guide
413.3-4A, Technology Readiness Assessment Guide (Guide), which provides a process for
assessing the maturity of technology critical to a project using a nine-step Technology Readiness
Level (TRL) scale. The Guide also provides recommendations for the level of maturity a
technology should be at key critical decision (CD) points in the progression of a project, as
specified in DOE Order 413.3B, Program and Project Management for the Acquisition of
Capital Assets. The Guide recommends that new technologies be at TRL 6 prior to a project
receiving CD-2 approval (approval of the performance baseline). TRL 6 is defined as being
tested using engineering scale models in a relevant environment and with a range of stimulants.

The proposed near or in-tank pretreatment capabilities were not at the stage of maturity to
support a critical decision (CD-2) as recommended in the Guide. Currently the proposed in-tank
pretreatment capabilities are at TRL 4 for the filtration system and TRL 5 for the ion exchange
system. According to the Guide, these levels are the equivalent of testing at laboratory and small
scale levels. Departmental guidance stresses that moving from TRL 5 to 6, "represents a major
step up in a technology's demonstrated readiness" and is, "well beyond the lab scale tested for
TRL 5." For example, the guidance suggests that achieving TRL 6 status requires demonstrated
success of the technology with real waste or a range of stimulants. Until the needed technologies
are mature enough to realistically assess operational efficiencies and to demonstrate safety, we
concluded that there is a significant risk that the technology may not be able to perform as
intended. This could result in operational delays and the need to perform additional development
work or the development of acceptable alternative technologies.

                                        Permitting Issues

Permitting requirements for the 2020 Vision were identified as a critical risk to the proposal in
August 2011, and little has changed to resolve these concerns. Specifically, because the waste
activities contained in the proposal deal with Resource Conservation and Recovery Act (RCRA)


                                                4
waste constituents, the systems and processes would need to be permitted by the Washington
State Department of Ecology (Ecology). The RCRA permits would require modification for the
pre-treatment activities in the tank farm, the LAW vitrification facility and other supporting
facilities at the WTP. The Department recognized this as a risk in its June 2011 Environmental
Management Advisory Board – Tank Waste Subcommittee Report. Additionally, several of the
required permits relied upon the completion of the Tank Closure & Waste Management
Environmental Impact Statement and its associated Record of Decision, which have not yet been
finalized. Furthermore, the 2020 Vision proposal pointed out that although permitting processes
and timelines were well established, they would not support the accelerated schedule
requirements, thus they will need to be accelerated to meet the proposal's timeframe. An August
2011 report by the Office of Engineering and Construction Management's Construction Project
Review cited a concern that both Bechtel and Ecology may lack sufficient resources to be able to
address the needs of an accelerated permitting process.

                                   Incomplete Business Case

The essence of our concern is that, despite recommendations by two independent review teams,
ORP had not developed a detailed analysis of the 2020 Vision costs, benefits and risks. In this
regard, in June 2011 the Environmental Management Advisory Board - Tank Waste
Subcommittee recommended that a "business case" be developed for the 2020 Vision proposal.
The business case was to address cost, schedule and project uncertainties and risks. Further, an
August 2011 report by the Office of Environmental Management's Construction Project Review
team also recommended that a cost-benefit analysis be performed for the proposal with a
completion date of November 1, 2011. However, as of April 26, 2012, ORP had not developed a
business case or a cost-benefit analysis for the 2020 Vision proposal. When we discussed this
concern, ORP management asserted that it had performed a high-level business analysis that
captured certain WTP costs. However, we found that the business analysis failed to include the
detailed cost analyses called for by the external review reports.

                                 Effect on Other EM Activities

In undertaking this review, we were mindful of the complexity of the decisions that Department
officials face as consideration of the 2020 Vision goes forward. Most notably, this includes
striking the right balance between the benefits of expediting the Hanford Site cleanup and
ensuring that no actions are taken that may inadvertently delay a successful outcome or increase
the overall multi-billion dollar cost of the project to the Government.

On one hand, as discussed in this report, there were a number of what we consider to be
significant cost, technology and permitting hurdles that must be overcome if the 2020 Vision
proposal implementation is to be successful. On the other hand, the 2020 Vision proposal has
the potential for expediting the entire WTP strategy, which is a critical element in the
Department's plan to treat the huge quantities of radioactive, hazardous and mixed waste stored
at the Hanford Site. Any unnecessary delays in this process, or conversely, actions missed that
could have expedited the cleanup at Hanford, only exacerbate the health, safety and
environmental concerns at the Site. It is in this context that we have provided the following
recommendations.



                                                5
RECOMMENDATIONS AND PATH FORWARD

We acknowledge that the 2020 Vision proposal is currently under consideration and does not
reflect Department policy at this time. While no formal decision has been made on whether or
not to proceed, we recommend that the Manager, ORP, in coordination with the Office of
Environmental Management:

      1.   Develop a detailed 2020 Vision business case as recommended by both the Tank Waste
           Subcommittee and Construction Project Review reports to include detailed cost-benefit
           analysis, risk assessment and impacts and other assessments as defined by the
           independent review teams; and,

      2.   Engage stakeholders, including Washington State officials, to ascertain their positions
           concerning issues such as permitting, commissioning and startup of WTP, proceeding
           with early treatment of LAW and other factors relevant to the 2020 Vision proposal.

MANAGEMENT REACTION

The Office of Environmental Management concurred with the recommendations to develop a
more detailed business case analysis and to gain stakeholder input on the early treatment of
LAW prior to making a decision to proceed with the 2020 Vision One System proposal.
Management stated that the report accurately captured the Department's ongoing effort to
develop a revised baseline for the WTP project. As a result of this effort, the Department is not
evaluating the 2020 Vision One System proposal at this time. However, the Department plans to
complete a detailed business case analysis prior to the decision to direct feed the LAW facility.
In addition, the Department has begun and will continue engagement of stakeholders up to and
through the decision to direct feed the LAW vitrification facility.

AUDITOR COMMENTS

Management's proposed actions are responsive to the recommendations. Management stated that
the Department is no longer evaluating the 2020 Vision Proposal at this time, and we
acknowledge that much can change in the Department's approach as it continues to evaluate
certain technical challenges associated with this project. However, we were informed that the
central tenet of the 2020 Vision Proposal remains a prominent alternative under consideration.
Specifically, management is still considering early treatment of LAW prior to full
commissioning of the WTP. Given this, the issues, risks and recommended actions contained
herein are still valid and should be addressed in any detailed business case analysis developed in
response to our first recommendation. Management's comments are attached in their entirety.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Acting Under Secretary of Energy
      Special Assistant for Environmental Management
      Chief of Staff


                                                  6
                      Attachment


MANAGEMENT COMMENTS




         7
    Attachment (continued)




8
                                                                    IG Report No. DOE/IG-0871

                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                       http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
